HHS/OIG, Audit -"Resolution of Audit Findings on States' Beneficiary Eligibility
Determinations for Medicaid and the State Children's Health Insurance Program,"(A-07-06-03073)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Targeted Case Management Services Rendered by the Massachusetts Department of Social
Services During Federal Fiscal Years 2002 and 2003," (A-01-04-00006)
May 19, 2006
Complete
Text of Report is available in PDF format (2.46 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Massachusetts Office of Medicaid (the State agency)
claimed allowable Medicaid targeted case management (TCM) services rendered by Department
of Social Services (Social Services) during Federal fiscal years (FYs) 2002 and 2003.  The
State agency claimed unallowable Medicaid TCM services rendered by Social Services.  The
Social Services TCM monthly rates charged to Medicaid included social workers salary costs
related to direct social services, such as child protection and welfare services.  Eliminating
these unallowable costs from the calculation of the monthly rates, we determined that the
costs of TCM services claimed through the State agency were overstated by $171,147,058 ($86,645,347
Federal share).  We were unable to express an opinion on the remaining $26,571,177 ($13,460,989
Federal share) that related to the assessment of beneficiaries service needs, development
of a specific care plan, referral to needed services, and monitoring and followup.  Although
these services may appear to constitute allowable TCM services under existing policy, our
audit work identified a significant risk that the services may have already been reimbursed
under other Federal programs.
We recommended that the State agency: (1) refund to the Federal Government $86,645,347 in
unallowable costs; (2) work with CMS to determine the allowability of the $26,571,177 ($13,460,989
Federal share) on which we were unable to express an opinion; (3) refund to the Federal Government
any TCM costs claimed and reimbursed subsequent to our audit period that represent direct
medical, educational, or social services; and (4) establish procedures to ensure that TCM
rates used to claim Medicaid reimbursement do not include payment for direct medical, educational,
or social services to which the Medicaid-eligible individual has been referred.  In
its comments on our draft report, the State agency disagreed with our findings and recommendations.